  ~AMTRAK
      NATI ONAL RA ILROA D
      PASSENGER CORPORATION
                                         Office of Inspector General


Memorandum
To:           Gerald Sokol, Jr.
              Chief Financial Officer
                                                 Fo,
                              c:~~~
From:         David R. Warre; ( - /'
              Assistant Inspector General, Audits and Evaluations

Date:         May 12, 2014

Subject:      Engagement Memo - Best Practices for Determining Police Department
              Staffing (Project code 011-2014)


The Office of the Inspector General is initiating an audit involving the Amtrak Police
Department. Our objectives will be to (1) assess the police department's process for
determining the appropriate size and composition of its staff and (2) determine whether
the current staffing process could be improved by utilizing best practices.
During this audit, we plan to interview senior police department officials and identify
generally accepted best practices used by similar police departments to assure they
have the correct number of officers with the right skills in the appropriate locations. We
will work to minimize any impact on the Amtrak police department by coordinating
interviews with staff in advance.

Our work will be performed in accordance with generally accepted government
auditing standards. Our interactions with the corporation will be consistent with Pjl
2.1.3 which sets forth the relationship between the OIG and the corporation. In
particular, section 7.0 of the policy discusses coordination between Amtrak officials and
the OIG on audits and evaluations.
http:Uwww .amtrakoig.gov/sites/default/files/reports/ig-amtrak relat policy 01-
2012.pdf

We request that your office arrange an entrance conference for us with the appropriate
Amtrak officials at the earliest possible date. We will keep you informed of the status of
our work and any material changes in our objective, should they occur.
                                                                                             2


Michael Kennedy will be the Senior Director and J-J. Marzullo will be Audit Manager
for this audit. If you have any questions regarding this audit, please contact me at (202)
906-4742 (david.warren@amtrakoig.gov) or Michael Kennedy, Senior Director, Audits,
at 202-906-4308 (michael.kennedy@amtrakoig.gov).


cc:    Polly Hanson, Chief of Police
       William Herrmann, Managing Deputy General Counsel
       Matthew Gagnon, Senior Director, Amtrak Controls
       Melantha Paige, Senior Audit Liaison
